   November 7, 2005




Financial Management

Report on Controls Over Funds Used
by DoD for the National Drug Control
Program
(D-2006-012)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DASD (CN)             Deputy Assistant Secretary of Defense (Counternarcotics)
DoD OIG               Department of Defense Office of Inspector General
NGB                   National Guard Bureau
ONDCP                 Office of National Drug Control Policy
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                         November 7,2005

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DEPUTY ASSISTANT SECRETARY OF DEFENSE
                 (COUNTERNARCOTICS)
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Controls Over Funds Used by DoD for the National Drug Control
         Program (Report No. D-2006-012)

     We are providing this report for information and use. We considered management
comments on a draft of this report when preparing the final report.
       The Assistant Secretary of Defense (Countemarcotics)comments conformed to the
requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore, additional
comments are not required.
       We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. James L. Komides at (614) 751-1400, extension 21 1 or Ms. Amy J. Frontz at
(614) 75 1-1400, extension 213. See Appendix C for the report distribution. The team
members are listed inside the back cover.


                             By direction of the Deputy Inspector General for Auditing



                                          ~ a u v ~ r a n e t tCPA
                                                               o,
                                       Assistant Inspector General
                                    Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2006-012                                                November 7, 2005
  Project No. (D2005-D000FJ-0120.000)

         Controls Over Funds Used by DoD for the National Drug
                           Control Program

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel working in the counterdrug
program should read this report. It discusses internal controls used to account for the
counterdrug funding that is provided annually to DoD organizations.

Background. This audit was performed to meet the requirements of Public
Law 105-277, “Office of National Drug Control Policy Reauthorization Act of 1998,”
October 21, 1998. The DoD Office of Inspector General is responsible for authenticating
the accounting of funds allocated to the DoD counterdrug organizations by the Deputy
Assistant Secretary of Defense (Counternarcotics). For FY 2004 DoD counterdrug
organizations were allocated $953.3 million by the Deputy Assistant Secretary of
Defense (Counternarcotics) and obligated $916.5 million.

Results. DoD Components involved in the counterdrug program used the funds they
were provided for counterdrug purposes. Additionally, documentation was available for
the majority of the transactions we tested. However, the amounts reported by the
Military Departments and the National Guard to the Deputy Assistant Secretary of
Defense (Counternarcotics) did not always match the accounting records, and procedures
were not in place to reconcile the differences. The Deputy Assistant Secretary of
Defense (Counternarcotics) needed to require DoD counterdrug organizations to establish
processes to properly record amounts used for counterdrug activities, to include
maintaining information on the details of the transactions related to amounts reported.
We identified a material management control weakness related to accounting for
counterdrug funds reported to the Deputy Assistant Secretary of Defense
(Counternarcotics). The recommendations in this report, if implemented, will improve
the accuracy of reporting of the DoD counterdrug funds.

Management Comments and Audit Response. The Principal Director for
Counternarcotics concurred with the audit finding and recommendations. He issued new
guidance that requires DoD Components to establish an account record that will support
amounts reported as obligated at the end of the fiscal year and reconcile the amount
reported to detail transaction records. We commend the quick action. The new policy
guidance will improve the audit trail for the reported obligation amount. Although not
required to comment, the Department of the Army and the National Guard Bureau
provided comments that supported the report conclusions. See the Finding section of the
report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   3

Management Control Program Review                                            3

Finding
     Reconciliation and Support of DoD Counterdrug Organizations Funding    4

Appendixes
     A. Scope and Methodology                                               10
         Prior Coverage                                                     12
     B. DoD Organizations Included in the National Drug Control Program     13
     C. Report Distribution                                                 14

Management Comments
     Assistant Secretary of Defense (Special Operations and Low-Intensity
        Conflict)                                                           17
     Department of the Army                                                 19
     National Guard Bureau                                                  21
Background
    The DoD receives funds annually to do its part to combat the use of drugs
    nationally and internationally. The Deputy Assistant Secretary of Defense
    (Counternarcotics) (DASD [CN]) is responsible for the DoD counterdrug
    activities and for reporting on the activities to the Office of National Drug Control
    Policy (ONDCP), a Component of the Executive Office of the President.

    The DoD counterdrug program is funded through the DoD Central Transfer
    Account. The amount funded through this account for FY 2004 was
    $953.3 million. DASD (CN) allocates the funds by issuing reprogramming
    actions to the DoD counterdrug organizations. The funds are allocated by
    appropriation and by project code. Organizations receiving DoD counterdrug
    funding for FY 2004 include the Military Departments, the National Guard,
    10 Defense agencies, and 7 other DoD organizations. (See Appendix B for a list
    of the DoD organizations involved with the National Drug Control Program.)
    Each of these organizations reports back to DASD (CN), by project code, the
    amount obligated for the year from the amount allocated.

    This audit was performed to meet requirements of Public Law 105-277, “Office
    of National Drug Control Policy Reauthorization Act of 1998,” October 21, 1998,
    which states in section 705:
           (d) Accounting of Funds Expended.—The Director shall-

                    (A) require the National Drug Control Program agencies to
           submit to the Director not later than February 1 of each year a detailed
           accounting of all funds expended by the agencies for National Drug
           Control Program organizations during the previous fiscal year, and
           require such accounting to be authenticated by the Inspector General
           for each agency prior to submission to the Director; and

                    (B) submit to Congress not later than April 1 of each year the
           information submitted to the Director under subparagraph (A).

    Office of National Drug Control Policy. The office is responsible for:

           •   developing a national drug control policy,

           •   coordinating and overseeing implementation of the national drug
               control policy,

           •   assessing and certifying the adequacy of national drug control
               programs and the budget of those programs, and

           •   evaluating the effectiveness of the national drug control programs.




                                              1
Office of National Drug Control Policy Circular, “Drug Control
Accounting,” April 18, 2003. The Circular provides the policies and procedures
used by National Drug Control Program agencies in conducting a detailed
accounting and authentication of all funds expended on National Drug Control
Program organizations. The Circular requires a detailed accounting submission
from the Chief Financial Officer, or other accountable senior level executive, of
each agency to the Director of ONDCP. The detailed report must include (a) a
table highlighting prior year drug control obligations data, and (b) a narrative
section making assertions regarding the prior years obligation data.

The assertions included an acknowledgement that the financial systems
supporting the drug methodology yield data that fairly present the aggregate
obligations from which the obligation estimates are derived.

For the last 3 fiscal years, the DoD Office of Inspector General (DoD OIG) has
performed an attestation review engagement. In performing the attestation
review, the DoD OIG has performed limited substantive testing and relied mainly
on analytical procedures. We performed this audit to conduct more detailed
substantive testing on the transactions that account for the obligations and
expenditures of the DoD counterdrug program for FY 2004.

Deputy Assistant Secretary of Defense (Counternarcotics). The office is
responsible for:

       •   developing and implementing the Department’s counternarcotics
           policy;

       •   coordinating and monitoring the Department’s counternarcotics plans
           and programs;

       •   directing the planning, programming, and budget formulation for the
           program; and

       •   working with the Joint Staff, Unified Commanders, and Chiefs of the
           Reserve and National Guard on all issues and actions relating to the
           execution of the Department’s counternarcotics program and their
           missions.

The program consists of functions to reduce demand and functions to reduce
supply. Active duty and civilian drug testing, expanded testing of the Reserves
and National Guard, establishing consistent policies regarding drug use, and
community outreach programs for Department dependents all serve to reduce the
demand. Detection and monitoring programs that integrate military, United
States law enforcement agencies, and foreign capabilities against illegal air and
maritime drug shipments to the United States are aimed at reducing the supply of
illegal drugs.




                                    2
Objectives
    The objective of the audit was to determine whether DoD expended funds on the
    National Drug Control Program in compliance with Office of National Drug
    Control Policy Circular “Drug Control Accounting,” April 18, 2003. We also
    reviewed the management control program as it related to the audit objective and
    compliance with laws and regulations related to the program. See Appendix A
    for a discussion of the scope and methodology and prior coverage related to the
    objectives.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DoD counterdrug organizations’ management controls over the
    reporting of funds used to support counterdrug efforts. We reviewed
    management’s self-evaluation applicable to those controls. We reviewed the
    FY 2004 Annual Statement of Assurance for several of the DoD organizations
    receiving counterdrug funding to determine whether any of the reported material
    management control weaknesses were related to accounting for counterdrug
    funding.

    Adequacy of Management Controls. We did identify a material management
    control weakness, as defined by DoD Instruction 5010.40, related to DoD
    counterdrug organizations adequately supporting the obligation amounts reported
    to the DASD (CN) at fiscal year end.

    Adequacy of Management’s Self-Evaluation. The Office of DASD (CN)
    reports the results of its evaluation of internal controls to the Office of Secretary
    of Defense (Special Operations and Low Intensity Conflict). This office did not
    consider the DoD counterdrug program an assessable unit, and DASD (CN)
    reported no internal control weaknesses for FY 2004.




                                           3
           Reconciliation and Support of DoD
           Counterdrug Organizations Funding
           The available documentation showed that DoD organizations used the
           funds they were provided for counterdrug purposes with supporting
           documentation available for the majority of the transactions we tested.
           However, the amounts reported by the Military Departments and the
           National Guard to the Deputy Assistant Secretary of Defense
           (Counternarcotics) did not always match the accounting records, and
           procedures were not in place to reconcile the differences. Documentation
           was incomplete because the Military Departments and the National Guard
           counterdrug Components did not have procedures in place to reconcile
           and maintain an audit trail for the amounts reported. As a result, DoD
           could not provide adequate evidence that FY 2004 year-end reporting of
           the amount of counterdrug funding used was accurate, and unless controls
           are improved DoD will not be able to demonstrate that the FY 2005
           amounts are accurate.


Detailed Transaction Support
    We were able to obtain supporting documentation for 228 of the 322 sample
    transactions, valued at $103 million, that we tested. The source documentation
    supported $101.4 million and identified $0.2 million as unsupported. The source
    documentation was not available for 94 transactions valued at $1.5 million. All
    source documentation should be available in a timely manner to support future
    financial statement audits. The funds relating to all 228 transactions for which we
    obtained source documentation were used for counterdrug purposes.

    The Special Operations Command and the Defense Security Cooperation Agency
    were able to support the amounts they reported at year-end with detail transaction
    data.

    However, the detailed transactions obtained from the three Military Departments
    and the National Guard did not support the amount reported to DASD (CN) as
    obligated. Additionally, those four DoD organizations did not have procedures in
    place to reconcile the differences between the amount reported and the amount
    supported by detail transactions.

    Although the Army and Navy did not have specific reconciliation procedures in
    place, they were able to provide explanations for the majority of the differences in
    the amount reported and the amount supported by detail transactions. However,
    the Air Force and National Guard Bureau (NGB) could not provide detailed
    obligation transactions that supported the amount reported to DASD (CN) for
    sample project codes. Table 1 compares the reported amounts to detailed
    transaction amounts.




                                         4
                Table 1. Differences in Supporting Detail and Obligations
                       Reported to DASD (CN) for Items Sampled
                                      ($ in millions)

                                              Value of
                               No. of        Obligations          Value of Detail
  DoD Counterdrug              Project       Reported to           Transactions           Difference
       Activity                Codes         DASD (CN)              Provided              (Absolute)
Air Force                         7            $146.5                 $148.7                 $2.2
Navy                              7              93.8                   95.8                  2.0
National Guard*                   2              20.8                   19.2                  1.6
Army                              5              90.8                   89.6                  1.2
Defense Security
 Cooperation Agency               2                18.2                  18.2                   0.0
Special Operations
 Command                          1                12.4                  12.4                  0.0
     Total                                       $382.5                                       $7.0
*This table reflects a sample of $382.5 million of the $953.3 million of counterdrug funding. National
Guard State Plan funding was included in a separate sample, which is discussed below.



        Air Force. The Air Force was not able to support the obligations reported to
        DASD (CN) at the end of FY 2004 with detailed transaction records. The Air
        Force counterdrug office provided the detailed transaction support by querying
        the data from the Commanders Resource Integration System. The Air Force
        counterdrug office did not have any procedures in place to reconcile the
        $2.2 million difference in the amount of detail transactions and the amount
        reported to DASD (CN) for FY 2004 obligations.
        National Guard. The NGB headquarters was not able to reconcile differences in
        the supporting detail and the amount reported to DASD (CN) for FY 2004
        obligations for project codes 7415 National Guard Schools and 7403 National
        Guard State Plans. See Table 2 and Table 3 for more information on amounts
        reported for these two project codes.

                Project Code 7415 National Guard Schools. The NGB reported to
        DASD (CN) a total amount allocated of $19.2 million and a total amount
        obligated of $18.2 million. NGB headquarters provided us a list of the States that
        received counterdrug funding under project code 7415. The amount of
        obligations identified by NGB headquarters was $18.7 million. The NGB
        headquarters could not explain the $.5 million difference between the
        $18.7 million and the $18.2 million reported to DASD (CN). Table 2 compares
        the reported amounts to detailed transactions for selected States.




                                                    5
                   Table 2. Project Code 7415 National Guard Schools

                         Dollar Amount
                      Provided to DoD OIG        Dollar Amount of          Difference
  State/Activity          by NGB HQ             Detailed Transactions      (Absolute)
Florida                    $5,630,512                $3,595,860            $2,034,652
Iowa                        2,099,988                 1,911,553              188,435
Mississippi                 6,286,025                 6,168,957              117,068
Pennsylvania                4,381,657                 4,450,482                68,824
Wisconsin                     346,197                   370,543                24,346
 Total                    $18,744,379               $16,497,395            $2,433,325


               We requested that each of the five States provide the detail obligation
      transactions to support FY 2004 obligations. The total dollar amount of FY 2004
      obligations supported by detail transaction lists was $16.5 million (See Table 2).
      The NGB provided no explanation and had no procedures in place to reconcile
      the difference in the amount of detail transactions provided by the States. As a
      result, the detail transaction lists of $16.5 million could not be reconciled to the
      $18.2 million reported to DASD (CN) or the $18.7 million calculated by NGB in
      February 2005.

             Project Code 7403 National Guard State Plans. NGB headquarters
      could not provide detailed support for the amount reported as obligated for project
      code 7403, and there were no procedures in place to reconcile the amount
      reported as obligated to the detailed accounting transactions.

      This project code was selected for review separately from the random sample of
      project codes because of its significant dollar amount and the number of
      organizations reporting under this project code. NGB reported funding to
      DASD (CN) for this project code in four segments. The four segments were
      Army National Guard State Plans, Air National Guard State Plans, Demand
      Reduction Army National Guard, and Demand Reduction Air National Guard.
      Table 3 shows the amounts allocated and obligated for each segment.




                                            6
     Table 3. Project Code 7403 National Guard State Plan Funding Reported
                                 to DASD (CN)
                                 ($ in millions)

 Reporting Segment from        Value of Funds Allocated         Value of Obligations
    DASD (CN) Report               by DASD (CN)                Reported to DASD (CN)
Army National Guard State
 Plans                                  $128.5                          $141.5
Air National Guard State
 Plans                                     52.4                            44.2
Demand Reduction Army
 National Guard                            13.2                             0.0
Demand Reduction Air
 National Guard                            5.1                             4.5
    Total                               $199.2                          $190.2


             The NGB headquarters could not provide us the data, broken out by State,
      that were used to report the four segments at year-end to DASD (CN). However,
      NGB headquarters provided an Access database program that was used to track
      the amount allocated to each State or territory throughout the year. The database
      maintained obligation data based on budgetary reports, not accounting records.

              NGB headquarters reported the initial allocation of funding based on the
      President’s budget during March 2003 (referred to as FY 2004 Initial). At the
      beginning of FY 2004, NGB headquarters allocated discretionary amounts of
      funding and specific line item funding to the States and territories (referred to as
      the Second Target FY 2004). The Second Target funding totaled $181.8 million
      for the individual State plans and $17.4 million for NGB headquarters. NGB
      indicated that the Second Target FY 2004 was the best available support for the
      amount reported at year-end to DASD (CN). The final amount obligated for each
      State for FY 2004 was not determined until February 2005. The final amounts
      determined in February 2005 indicated $186.5 million for the individual State
      plans, $3.9 million for DASD (CN) support for Colombia, and $8.8 million for
      NGB headquarters. These amounts changed from the Second Target amounts
      reported earlier, however, the total amount remained $199.2 million. These final
      amounts for the individual State plans still did not reconcile to the detail
      obligation transactions provided.

              We randomly selected nine States and the Demand Reduction Army
      National Guard segment to review. We contacted each selected State and
      requested that they identify the transactions that supported the amount obligated
      for FY 2004. We requested that NGB headquarters provide the methodology it
      used to determine the amount it reported as allocated for Demand Reduction
      Army National Guard, and explain why no amount was reported as obligated.




                                           7
           The NGB organizations could not provide adequate documentation to
    support the obligated reported amount for the nine States and the Demand
    Reduction Army National Guard segment. For two States, obligation transactions
    were significantly different from the amount provided by NGB headquarters.
    Two other States could not provide the data in an electronic format that could be
    used for further sample selection and analysis.

           In addition, NGB headquarters could not provide support for the amount
    reported as Demand Reduction Army National Guard. The Army and Air
    National Guard [Demand Reduction] segments reported to DASD (CN) were
    estimates of the amount of funding from the State plans that was used for demand
    reduction activities. The accounting systems do not differentiate between demand
    reduction and other State plan funding. The only time demand reduction and
    other State plan funding were identified separately was for the year-end report to
    DASD (CN). NGB headquarters could not provide the methodology used to
    estimate the $13.2 million it reported as allocated for Demand Reduction Army
    and the $5.1 million it reported as allocated for Demand Reduction Air National
    Guard. In addition, NGB was not consistent in reporting obligations for the
    demand reduction amounts. The Air National Guard reported an estimate of the
    amount obligated separately to DASD (CN). The Army National Guard included
    the demand reduction obligations with the other state plan obligations reported to
    DASD (CN).

            We were unable to test the individual transactions supporting the
    obligations for the nine States and Demand Reduction Army National Guard
    segment because NGB was not able to provide adequate detail transactions to
    support the amount reported as obligated for FY 2004.


Source Documentation
    We reviewed 322 sample transactions valued at $103 million. For each of the
    transactions selected, we requested source documentation to determine if the
    transaction was accurately valued in the accounting system and was expended for
    a valid counterdrug purpose. Supporting documentation includes hard copy
    documents such as invoices, Military interdepartmental purchase requests,
    contracts, and travel vouchers. Each supporting document was evaluated on an
    individual basis. The main considerations were whether the supporting
    documentation related to the sample project code and whether the expenditure’s
    purpose appeared to be a reasonable counterdrug expenditure. For the
    322 sample transactions, we were able to obtain supporting documentation for
    228 transactions. The source documentation supported $101.4 million and
    identified $0.2 million as unsupported. Source documentation was not available
    for 94 transactions valued at $1.5 million. All source documentation should be
    available in a timely manner to support future financial statement audits. We
    determined that the funds relating to all 228 transactions for which we obtained
    source documentation were used for counterdrug purposes.




                                        8
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Deputy Assistant Secretary of Defense
    (Counternarcotics):

           1. Require the DoD counterdrug organizations reporting obligation
    data to establish procedures to maintain an audit trail for the amounts
    reported as obligated at the end of the fiscal year, and establish a process to
    reconcile the amount reported at the end of the fiscal year with detailed
    transaction records.

           Assistant Secretary of Defense (Counternarcotics) Comments. The
    Principal Director for Counternarcotics concurred. He stated that he issued new
    guidance that requires DoD Components to establish an account record that will
    support amounts reported as obligated at the end of the fiscal year and reconcile
    the amount reported to detail transaction records.
            Department of the Army Comments. Although not required to
    comment, the Chief, Force Protection Division concurred. The Chief commented
    that the processes and records exist to support counterdrug obligations. However,
    detailed transaction listings are the responsibility of the specific installation
    entering the obligation into the financial system and may not be available at the
    Army Counterdrug Office.

           National Guard Bureau Comments. Although not required to comment
    the National Guard Bureau concurred. The National Guard Bureau will retain the
    supporting documentation that supports the detailed obligation transactions
    reported at the end of the fiscal year.

           2. Report the material weakness identified in the Finding of this
    report in the annual statement of assurance until it is corrected.

            Assistant Secretary of Defense (Counternarcotics) Comments. The
    Principal Director for Counternarcotics acknowledged the material management
    control weakness identified during the audit and the new obligation guidance, if
    implemented correctly, should correct the material weakness.




                                         9
Appendix A. Scope and Methodology
   The audit was performed to meet the requirements of Public Law 105-277,
   “Office of National Drug Control Policy Reauthorization Act of 1998,”
   October 21, 1998, which states that the Director must require the National Drug
   Control Agencies to submit a detailed accounting of all funds expended by the
   agencies for National Drug Control Program organizations during the previous
   fiscal year to the director no later than February 1 of each year. The Act also
   requires such accounting to be authenticated by the Inspector General of each
   agency.

   We audited the FY 2004 funding provided to DoD counterdrug organizations
   reported by DASD (CN) at the end of the year. The DASD (CN) reported
   obligations by functional area to the ONDCP, as required by ONDCP Accounting
   Circular, April 18, 2003. However, the data was reported by the DoD
   counterdrug organizations to DASD (CN) by project code. DASD (CN) took the
   amounts reported by project code and allocated them, based on an estimated
   percentage, to the functional areas. Because the data were reported to
   DASD (CN) by project codes at the end of the year, we determined that the
   project code would be the sampling unit.

   The universe consisted of all funds for FY 2004 allocated by DASD (CN) for
   obligations in support of the DoD National Drug Control Program. For FY 2004
   DASD (CN) allocated $953.3 million for obligations. Of this total,
   $882.8 million was for unclassified programs and $70.5 million was for classified
   programs. We focused our audit on the unclassified funds allocated by
   DASD (CN) for obligation for the FY 2004 annual reporting period. There was
   $882.8 million allocated for obligations for FY 2004 in 86 unclassified project
   codes. Of this $882.8 million, $847.2 was reported as obligated during FY 2004.

   The scope of our audit was limited in that we did not review $70.5 million of the
   $953.3 million allocated for obligations by DASD (CN) related to projects that
   were classified. We performed this audit from February 2005 through August
   2005 based on generally accepted government auditing standards.
   The universe was separated into two populations. The first population consisted
   of all unclassified project codes, except for project code 7403, with
   $683.6 million allocated or available and $657.0 million obligated. The second
   population consisted of project code 7403 National Guard State Plans with
   $199.2 million allocated or available and $190.3 million obligated. We randomly
   selected 14 unique project codes from the population of project codes and
   randomly selected 10 organizations reporting under project code 7403 to conduct
   testing of detailed transactions.

   We determined whether the obligations and expenditures related to the DoD
   National Drug Control Program for FY 2004 were accurately valued and used for
   valid counterdrug missions. To accomplish this, we selected project codes from
   the end of FY 2004 reported to the DASD (CN) office from the DoD counterdrug
   organizations. We used statistical sampling techniques and performed substantive



                                       10
tests on the transactions that make up the dollar amounts for selected project
codes. We also judgmentally selected transactions for review that were valued at
less than, or equal to, zero. For each transaction we selected, we wanted to
determine if the obligation was accurately reflected in the accounting system and
was for valid expenses related to the DoD counter drug program.

We sent an initial data request to each activity that received counterdrug funding
within each project code. We requested the detailed transactions that supported
the amount obligated for FY 2004 counterdrug program funding. We reconciled
the dollar amount reported as obligated in the end of FY 2004 report to
DASD (CN) to the dollar amount of all detailed transactions provided by each
activity. We conducted the second stage sample selection of detailed transactions
to ensure the documentation supported the amount reported for the transaction
and to ensure the funds were used for counterdrug programs.

Sample Design. We separated the data into non-project code 7403 and project
code 7403 populations.

The non-project code 7403 population was a two stage design. The first stage
was a probability proportional to size design by dollar amount, selected with
replacement. It consisted of 20 project codes, of which 14 were unique. These
project codes were selected from a universe of 85 project codes valued at
$683.6 million. At the second stage, a simple random sample of 20 transactions
for each project code was selected without replacement. The dollar amount by
document identification number for each transaction was totaled, and those
document identification numbers with a total dollar amount greater than zero were
used as the population from which we selected the sample transactions.
Randomization was done using Statistical Analysis Software version 9.1.

The project code 7403 population was a stratified design. The first stratum was a
census stratum consisting of the 20 states or components with the largest dollar
amounts. The second stratum consisted of 10 states or components selected by
simple random selection. The population consisted of the 54 organizations and
demand reduction amounts reported under project code 7403. For this project
code, nine States and the demand reduction amount for the Army National Guard
were selected from a universe of $199.2 million.

Sample Results. We did not project the results of our statistical sample because
of the differences between the amount reported and the amount supported by
detailed transactions for the DoD counterdrug organizations. In addition, NGB
could not reconcile or support the amounts reported for project codes 7403 and
7415. For these two project codes, we did not perform any testing of the detail
transactions to the source documentation.

For the 322 sample transactions valued at $103 million that we did test, we were
able to obtain supporting documentation for 228 transactions. The source
documentation supported $101.4 million and identified $0.2 million as
unsupported. The source documentation was not available for 94 transactions
valued at $1.5 million. Additionally, we determined that the funds relating to all
228 transactions for which we obtained source documentation were used for
counterdrug purposes. The results of the items we reviewed indicated that there


                                    11
    were adequate controls to ensure that funds were used for counterdrug purposes.
    However, all source documentation should be available to support future financial
    statement audits.

    Use of Computer-Processed Data. We used computer-processed data from the
    Standard Army Finance Information System, the Standard Accounting and
    Reporting System, and the Commander’s Resource Integration System. We did
    not test these systems’ general and application controls. We determined that the
    document numbers and obligation amounts on the source documents selected for
    review generally agreed with the data obtained from these systems. We did not
    find material errors that would preclude the use of computer processed data to
    meet the audit objectives or change the conclusions in this report.

    Use of Technical Assistance. The DoD OIG, Quantitative Methods Division
    provided assistance in developing the statistical sample plan.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the financial management high-risk area.


Prior Coverage
    During the last 5 years, the DoD OIG has issued 5 reports discussing the DoD
    counterdrug program. Unrestricted DoD OIG reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

    DoD OIG Report No. D-2005-030, “Independent Auditors Report on the DoD
    FY 2004 Detailed Accounting Report of the Funds Expended on National Drug
    Control Program Activities,” January 26, 2005

    DoD OIG Attestation Review of the DoD FY 2003 Drug Control Obligations
    Report, January 9, 2004
    DoD OIG Attestation Review of the DoD FY 2002 Drug Control Obligations
    Report, January 3, 2003

    DoD OIG Report No. D-2001-117, “Management Controls Over the FY 2000
    National Drug Control Program Funds Managed Through the DoD Central
    Transfer Account,” May 10, 2001

    DoD OIG Report No. D-2000-145, “Management Controls Over National Drug
    Control Program Funds Managed Through the DoD Central Transfer Account,”
    June 9, 2000




                                        12
Appendix B. DoD Organizations Included in the
            National Drug Control Program
Military Departments
 Army
 Navy
 Air Force
National Guard
 National Guard (Air and Army Guard)
Defense Agencies
 Defense Contract Audit Agency
 Defense Intelligence Agency
 Defense Security Service
 Defense Security Cooperation Agency
 Defense Information Systems Agency
 Defense Logistics Agency
 DoD Education Activity
 Defense Threat Reduction Agency
 National Imagery and Mapping Agency
 National Security Agency
Other DoD Organizations
 Office of the Secretary of Defense
 Joint Chiefs of Staff
 Special Operations Command
 Assistant Secretary of Defense Command, Control, Communications, and Intelligence
 Washington Headquarters Service
 DoD Office of Inspector General
 Uniformed Services University of the Health Sciences




                                        13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Policy)
  Assistant Secretary of Defense (Special Operations /Low Intensity Conflict)
  Deputy Assistant Secretary of Defense (Counternarcotics)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Special Operations Command

Other Defense Organizations
Defense Security Cooperation Agency
Chief, National Guard Bureau
  Director, Army National Guard
  Director, Air National Guard

Non-Defense Federal Organizations
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        15
Assistant Secretary of Defense (Special
Operations and Low-Intensity Conflict)
Comments




                       17
18
Department of the Army Comments




                    19
20
National Guard Bureau Comments




                    21
22
23
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Amy J. Frontz
Kevin C. Currier
Brian L. Henry
Bethany L. Seiple
Lusk F. Penn
James Hartman
Catherine Bird
